 IMPLEMENTATION OF MOST EFFICIENT ORGANIZATION FOR
    THE DEFENSE FINANCE AND ACCOUNTING SERVICE
       COMMISSARY VENDOR PAYMENT FUNCTION


Report No. D-2001-023               December 20, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
CY                    Calendar Year
DeCA                  Defense Commissary Agency
DFAS                  Defense Finance and Accounting Service
DFAS-CO               Defense Finance and Accounting Service, Columbus
FTE                   Full-Time Equivalent
MEO                   Most Efficient Organization
OMB                   Office of Management and Budget
                       Office of the Inspector General, DoD
Report No. D-2001-023                                               December 20, 2000
  (Project No. D2000-D000CH-0076.000)


         Implementation of Most Efficient Organization for the
      Defense Finance and Accounting Service Commissary Vendor
                          Payment Function

                                Executive Summary

This audit is part of a larger review of Defense agency commercial activities programs
and Office of Management and Budget (OMB) Circular No. A-76 competitive sourcing
studies. The Defense Finance and Accounting Service (DFAS) announced the
competitive sourcing study of the commissary vendor payment function in
November 1995 and completed a study of 165 full-time equivalent personnel in
September 1997. On October 1, 1997, DFAS announced that it would implement the
Government’s most efficient organization (MEO) for in-house performance by April 1,
1998. The in-house MEO was 75 full-time equivalent personnel and the 5-year
Government estimate to perform the function was $12.4 million. This was about
$5 million less (29 percent) than the best value private sector bid. We subsequently
reviewed documentation for the commissary vendor pay study and reported in Inspector
General, DoD, Report No. 99-208, “Audit of the Defense Finance and Accounting
Service Commercial Activities Program,” July 8, 1999, that available documentation for
the study was not adequate to verify that the management plan reasonably established the
Government's ability to perform the performance work statement with the resources
provided by the MEO. DFAS improved internal controls over future studies, but did not
strengthen controls over implementation of the MEO for the vendor payment study. The
OMB requested the post-implementation review of the MEO because of the deficiencies
in the study noted in our prior report. We conducted this audit from December 1999
through June 2000.

Objectives. The overall objective was to evaluate the implementation of the competitive
sourcing program for Defense agency and Defense-wide commercial activities. Specific
objectives of the audit were to determine whether DFAS implemented the MEO for in-
house performance in accordance with the Transition Plan, the MEO was meeting the
performance work statement requirements, and the incurred costs for the MEO were
consistent with the Government estimate. The audit examined the adequacy of the DFAS
management control program as applicable to implementation of the MEO.

Results. DFAS did not follow procedures for implementation and monitoring the MEO
for the commissary vendor payment function or a subsequent MEO deviation that
reduced the authorized staffing for the function from 75 to 66 personnel. Specifically,
DFAS did not: document or track implementation and transition milestones outlined in
the Management Plan, Transition Plan, and Quality Assurance Surveillance Plan;
establish a methodology or document the analytical process for developing the MEO
deviation or adjusting staffing, costs, and metrics; appoint a quality assurance specialist
to oversee the MEO performance; analyze the impact of a doubling of the volume of
invoices to process; and maintain supporting documentation or establish a methodology
to reconcile MEO cost estimates to MEO actual costs. As a result, DFAS does not have
reliable operating information to confirm that implementation of the MEO and the MEO
deviation comply with the terms, quality standards, and costs specified in the
performance work statement.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service establish recordkeeping and accounting requirements for
documenting that each MEO for in-house performance is implemented in accordance
with the Management Plan, Transition Plan, and the Quality Assurance Surveillance
Plan; and that a quality assurance surveillance monitor is appointed for each MEO. We
also recommend that the Director, Defense Finance and Accounting Service adjust MEO
staffing, planned costs, and quality assurance metrics, for the increased volume of
payments, and verify costs for the commissary vendor payment function for FYs 1998
through 2000.

Management Comments. DFAS partially concurred with the recommendations. DFAS
appointed a quality assurance evaluator on May 5, 2000, and will implement guidance in
December 2000 to standardize post-implementation transition documentation
requirements, MEO deviation requests, and quality assurance surveillance requirements.
DFAS also stated that a second MEO deviation request was under development to adjust
MEO staffing, costs, and quality assurance metrics for all previous workload changes.
DFAS did not agree to verify FYs 1998 through 2000 costs for the vendor payment
function, stating that sufficient documentation for MEO costs presently exists. However,
DFAS stated that it would implement guidance, by December 2000, to standardize a
specific cost report that separately identifies MEO operation costs. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of comments.
Audit Response. DFAS comments were generally responsive. If the proposed DFAS
cost report captures present and historical costs related to the commissary DeCA vendor
payment function, we believe this will fulfill the intent of the recommendation to verify
costs for the function.




                                             ii
Table of Contents

Executive Summary                                         i


Introduction
     Background                                          1
     Objectives                                          2

Results
     Implementation of the Most Efficient Organization    3

Appendixes
     A. Audit Process
           Scope and Methodology                         13
           Management Control Program Review             14
     B. Prior Coverage                                   16
     C. Report Distribution                              18

Management Comments
     Defense Finance and Accounting Service              21
Background
    As a matter of accountability, the revised Office of Management and Budget
    (OMB) Circular No. A-76 Supplemental Handbook requires that Federal agencies
    conduct post-most efficient organization (MEO) performance reviews on not less
    than 20 percent of all functions retained or converted to in-house performance as
    a result of a cost comparison. There is no requirement to review any function that
    is converted to contractor performance. The OMB requested the Office of the
    Inspector General, DoD, to perform a post-MEO performance review of the
    Defense Finance and Accounting Service (DFAS) commissary vendor payment
    because of deficiencies in the competitive sourcing study for the vendor payment
    function that were discussed in Inspector General, DoD, Report No. 99-208,
    “Audit of the Defense Finance and Accounting Service Commercial Activities
    Program,” July 8, 1999.

    OMB Circular A-76. OMB Circular A-76 and its Revised Supplemental
    Handbook, March 1996, establish Federal policy and guidance for determining
    whether commercial activities should be contracted out or performed in-house.
    The A-76 process consists of developing the performance work statement and the
    management plan, submitting formal bids, and conducting the A-76 cost
    comparison. The management plan describes the Government’s MEO and is the
    basis of the Government’s cost estimates. The process culminates in a cost
    comparison of the in-house estimate of Government performance of a commercial
    activity with the cost for contract performance of the commercial activity
    function, and a decision to perform the function with Government employees or
    contract for its performance. Experience has shown that public and private sector
    competitions for the performance of commercial activities generate savings,
    usually through a reduction in personnel, whether the Government or the private
    sector wins the competitions.

    Post-MEO Performance Review. OMB Circular A-76 Revised Supplemental
    Handbook, requires that the post-MEO performance review examine personnel
    full-time-equivalents (FTEs) and grade structure, contract support, MEO
    workload, responsiveness, and quality of work. The review evaluates
    implementation and use of the MEO Quality Assurance Surveillance Plan,
    confirms whether the MEO has been implemented in accordance with the
    Transition Plan, establishes the MEO's ability to perform the services of the
    performance work statement, and verifies that actual costs are within the estimates
    contained in the in-house estimate. Adjustments may be made for formal mission
    or scope of work changes. The review is generally conducted following the end
    of the first full year of performance.

    Commissary Vendor Payment Function. DFAS completed the A-76
    competitive sourcing study of the commissary vendor payment function on
    September 30, 1997, with an announcement of the decision to perform the
    function in-house with an MEO of 75 FTE personnel at the DFAS, Columbus
    (DFAS-CO). DFAS had previously performed the commissary vendor payment
    function using 165 FTE personnel at Fort Lee, Virginia, and San Antonio, Texas.




                                         1
     DFAS received bids from three commercial sources. The Government's 5-year
     cost estimate to perform the function at DFAS-CO was about $5 million less than
     the best value private sector bid. DFAS completed implementation of the MEO in
     February 1998.

     DFAS commissary vendor payment MEO provides vendor payment support to the
     Defense Commissary Agency (DeCA), which is responsible for operating and
     managing approximately 300 commissaries worldwide for military personnel and
     their families and other authorized users. DFAS processes about 2.1 million
     invoices per year with a total value of about $5 billion for goods delivered to the
     DeCA commissaries. About 80 percent of the invoices are electronically
     transmitted to DFAS-CO from the Delivery Ticket Invoice systems. The Delivery
     Ticket Invoice system permits the receipt documents for commissary deliveries to
     also serve as the invoice. The remaining 20 percent of the invoices are mailed to
     DFAS-CO. DFAS-CO processes the high volume of commissary vendor
     payments because DeCA does not use the Government purchase card for
     payments on commissary resale contracts and orders.

Objectives
     The overall objective was to evaluate the implementation of the competitive
     sourcing program for Defense agency and Defense-wide commercial activities.
     Specific objectives of the commissary vendor payment post-MEO review were to
     determine whether:

         •   DFAS implemented the MEO for in-house performance in accordance
             with the Transition Plan,

         •   the MEO was meeting the performance work statement requirements, and

         •   the incurred costs for the MEO were consistent with the Government
             estimate.

     The audit examined the adequacy of the DFAS management control program as
     applicable to implementation of the Defense commissary vendor pay MEO. See
     Appendix A for a discussion of the audit scope and methodology and a review of
     the management control program. See Appendix B for prior coverage.




                                          2
            Implementation of the Most Efficient
            Organization
            DFAS did not properly implement and monitor the MEO for the
            commissary vendor payment function, or a subsequent MEO deviation
            that reduced authorized staffing for the function from 75 to 66 personnel.
            Specifically, DFAS did not:

            •   document or track implementation and transition milestones outlined
                in the Management Plan, Transition Plan, and Quality Assurance
                Surveillance Plan;

            •   establish a methodology or document the analytical process for
                developing the MEO deviation or adjusting staffing, planned costs,
                and quality assurance metrics;

            •   appoint a quality assurance specialist as required by the MEO
                Management Plan and Quality Assurance Surveillance Plan to oversee,
                evaluate, and monitor the MEO performance;

            •   analyze the impact of a doubling of the volume of invoices to process;
                and

            •   maintain supporting documentation or establish a methodology to
                reconcile MEO cost estimates to MEO actual costs.

            These conditions occurred because DFAS-CO managers lacked
            experience in and guidance on implementing an MEO and monitoring
            MEO performance and costs. As a result, DFAS did not have reliable
            operating information to confirm that implementation of the MEO and the
            MEO deviation would achieve projected cost savings, or that DFAS was
            performing the work consistent with the terms, quality standards, and costs
            specified in the performance work statement.

Transition Plan for Most Efficient Organization
     Plan Content. The commissary vendor payment Transition Plan identified 152
     actions and related timelines for establishing the DFAS-CO organization to
     perform the commissary vendor payment function. The plan also outlined the
     requirements for facilities, furniture and equipment, telecommunications,
     workstations, systems, administration, and recruitment and training of employees
     to perform the function at DFAS-CO. The Transition Plan also identified actions
     and timelines required in closing commissary vendor payment operations at Fort
     Lee, Virginia, and San Antonio, Texas.

     The Transition Plan required DFAS headquarters and DFAS-CO to establish a
     transition team to implement the MEO while simultaneously mitigating impact on



                                         3
    vendor payments during the consolidation effort. The Transition Plan specified
    that DFAS-CO would implement the transition and that DFAS headquarters
    officials would provide oversight. DFAS-CO officials established a working
    group to track transition milestones included in the management plan.

    Implementation at Previous Operating Locations. The DFAS transition team
    did not maintain adequate documentation on the actions taken to implement the
    human resource actions prescribed in the Transition Plan for the closure of the
    vendor pay operations at Fort Lee and San Antonio, including the number of
    personnel subject to reduction in force procedures. According to DFAS officials,
    only two employees transferred to the DFAS-CO location and all other former
    Fort Lee and San Antonio personnel were separated or placed in other positions in
    accordance with reduction in force procedures. DFAS-CO staffed the MEO
    through transfers of personnel from other DFAS-CO functions and hiring
    personnel.
    Implementation at DFAS-CO. Except for MEO training, the DFAS transition
    team did not prepare and maintain appropriate documentation on implementation
    of Transition Plan actions at DFAS-CO. The team prepared limited minutes of
    November and December 1997 meetings, but did not document actions taken to
    achieve and monitor the Transition Plan milestones. In addition, the transition
    team did not verify the required workload transfer from Fort Lee and San Antonio
    nor did it verify claimed MEO structure and process improvements. As a result,
    DFAS could not provide reliable information to verify that all performance
    standards and productivity levels were maintained throughout the transition phase.

MEO Deviation
    Justification for Change. On August 4, 1999, DFAS-CO requested a deviation
    to the MEO citing significant process and system changes initiated by DeCA
    headquarters that necessitated the need to deviate from the original MEO. The
    request stated that automation, increased complexity of tasks, increased DeCA
    inquiries, modifications and elimination of tasks, and increased travel to provide
    customer support contributed to the need for an MEO deviation. DFAS-CO
    requested a reduction of the total MEO FTE structure from 75 to 66, with
    estimated annual labor savings of $158,000. On August 11, 1999, DFAS
    headquarters approved a DFAS-CO request to deviate from the original MEO
    performance work statement and MEO structure, including personnel positions
    and position descriptions.

    Supporting Documentation for Changes. The OMB Circular No. A-76
    Supplemental Handbook requires that the results of a management study must be
    documented to show the development and extent of the analytical process for
    changes made to the MEO. The MEO deviation affected 20 of the original
    75 FTE positions, 8 positions were upgraded, 12 positions were eliminated, and 3
    new positions were added. However, available documentation was not adequate
    to verify that the deviation plan reasonably established the Government's ability to
    perform the performance work statement. DFAS-CO did not establish a




                                         4
     methodology or document the analytical process used to justify the changes to the
     MEO structure and the performance work statement. DFAS had no policies on
     maintaining historical files of source documentation for the development of an
     MEO deviation. We believe that the Director, DFAS should establish policies
     and procedures for maintaining documentation on changes that occur to the MEO.

Quality Assurance Surveillance
     Performance of Quality Assurance Surveillance. Quality assurance
     surveillance includes methods by which the Government will evaluate in-house or
     contractor performance to ensure that the standards of the performance work
     statement are met within the contract or in-house cost estimate. The OMB
     Circular No. A-76 Supplemental Handbook states that the quality assurance
     surveillance plan will identify evaluation methods to measure requirements
     including detailed indicators for measuring work performance. The handbook
     also requires specific reports of the work measurement. The management plan
     and quality assurance surveillance plan for the commissary vendor payment
     function provided that a DFAS-CO representative would serve as a quality
     assurance specialist. The specialist was responsible for monitoring, assessing,
     recording, and reporting on the technical performance of the MEO on a day-to-
     day basis. However, DFAS-CO could not provide any documentation of quality
     assurance performance evaluations of the MEO because DFAS-CO had not
     assigned a quality assurance monitor to oversee the commissary vendor payment
     MEO performance. The DFAS-CO management stated that they were unaware of
     the requirement to designate someone as a quality assurance specialist to oversee
     and monitor the performance of the commissary vendor payment function, but
     that other management controls provided both DFAS-CO and DeCA managers
     with ongoing commissary vendor payment performance information. On May 5,
     2000, DFAS-CO took corrective action and appointed a quality assurance
     specialist for the commissary vendor payment function.

     Performance of Quality Assurance Monitors on MEOs for Other DFAS-CO
     Functions. DFAS-CO also had not assigned a quality assurance surveillance
     monitor for two other DFAS-CO MEOs from OMB Circular A-76 cost
     comparison studies (the DFAS facilities, logistics and administration function and
     the commissary accounting function). DFAS-CO implemented the facilities,
     logistics and administration function MEO in October 1997 and the commissary
     accounting function MEO in September 1999. On May 5, 2000, DFAS-CO
     appointed quality assurance surveillance monitors for those functions.

     Compliance with the Quality Assurance Surveillance Plan. The quality
     assurance surveillance plan contained the following three primary performance
     requirements:




                                         5
         •   the amount of interest paid on vendor billings,

         •   the amount of discounts lost to vendors, and

         •   customer (DeCA and DeCA vendors) satisfaction.


DFAS-CO did not comply with the first two requirements during much of the
time following implementation of the MEO, but stated DeCA delays in submitting
the invoices contributed to the poor performance. DFAS-CO had not surveyed
either DeCA or commissary vendors to determine satisfaction with its services.

        Interest Paid On Vendor Billings. DFAS-CO monthly performance
deviated from acceptable limits identified in the plan even though overall MEO
performance improved. The quality assurance surveillance plan included two
measures for interest paid on vendor billings. The first performance measure
requires that the number of invoices with interest due should not exceed one half
of one percent (.5 percent) of the total monthly invoices. During CY 1998,
CY 1999, and the first 4 months of CY 2000, the actual monthly invoice defect
rates were 1.7 percent, 1.2 percent, and 1.2 percent respectively. Although the
figures were more than the measurement standard, DFAS-CO demonstrated
improvement from the initial implementation of the MEO. The second
performance measure requires that monthly interest charges because of late
payments made by the MEO should not exceed $1,700 per month in interest
expense. During CY 1998, monthly interest ranged from $27,856 to $56,067 and
averaged $41,903 per month. For 1999, monthly interest payments ranged from
$20,288 to $41,059, and averaged $27,228 per month. For the first 4 months of
CY 2000, monthly interest payments ranged from $16,742 to $27,398, and
averaged $23,031 per month. Although the monthly interest payments exceeded
the limit for the entire period, the amount of monthly interest payments
consistently improved.

        Amount of Discounts Lost to Vendors. DFAS-CO performance for the
amount of discounts lost to vendors fluctuated significantly from month to month
and has declined in CYs 1999 and 2000. The quality assurance plan provides that
monthly vendor discount losses should not exceed one percent of the total
discounts offered. During CYs 1998 and 1999, actual monthly discount losses
exceeded the percentage limit for 8 of the 12 months for both years. For the first
4 months of CY 2000, monthly discount losses exceeded the percentage limit for
all months. Average monthly discount losses were 1.5 percent for 1998,
2.2 percent for 1999, and 3.4 percent for the first 4 months of 2000. The quality
assurance plan also provides that monthly discount losses should not exceed
$9,000 per month regardless of the percentage limit. Actual monthly discount
losses exceeded the $9,000 per month limit for 8 months during CY 1998. The
lost discounts ranged from $3,889 to $90,527, and averaged $17,118 a month.
DFAS improved performance on lost discounts during CY 1999 with 4 months
over the limit with monthly performance ranging from $1,371 to $42,000 and
averaging $10,962 a month. For the first 4 months of CY 2000, monthly discount
losses exceeded the limit all 4 months and ranged from $14,551 to $21,376 and
averaged $16,421 per month.



                                     6
        Responsibility for Invoice Performance. DFAS-CO officials stated that
control over the outcome of performance measures was a shared responsibility
between DFAS-CO and DeCA, and that the commissary vendor payment MEO
had no control over the inaccurate or delayed delivery ticket invoices entered by
DeCA locations. DFAS-CO officials also stated that invoice volume averaged
more than 170,000 invoices a month. This amount was twice the predicted
volume of 85,000 invoices per month, outlined in the Quality Assurance
Surveillance Plan, at the time of the competitive sourcing study. Thus, DFAS-CO
officials believed that the MEO was not solely to blame for the poor performance
on interest paid and discounts lost metrics. We believe that since the volume of
invoices paid has doubled, DFAS should adjust staffing, planned costs, and
quality assurance metrics. If a contractor was performing tasks and the volume of
the work increased, it would necessitate an increase in contract scope and dollar
value, and revised metrics.
        Customer Satisfaction. DFAS-CO made no attempt to measure DeCA or
DeCA vendor satisfaction as required by the quality assurance surveillance plan.
In order to gauge customer satisfaction, we judgmentally selected from a list of
3,180 commissary vendors provided by DFAS-CO and queried 15 vendors with
large dollar amount transactions. We asked the vendors to rate DFAS-CO as
good, fair, and poor in the following areas.

    •   Did DFAS-CO pay your invoices by the due date?

    •   Did DFAS-CO pay the correct amount on your invoices, including any
        discounts taken or payable?

    •   If you had a complaint or a problem with an invoice, did DFAS-CO
        handle the complaint or problem appropriately and in a timely fashion?

        Vendor Responses. Eleven of the 15 vendors provided responses to the
survey. All of the vendors stated that their invoices were generally paid on time
and the correct amount was paid, and all but 3 of the 11 vendors stated they had
no problems with handling complaints or problems by DFAS-CO regarding their
invoice payments. For the three negative responses, vendors stated that the
problem was caused by the length of time (ranging from 1 to 6 months) to resolve
discrepancies with invoices. One vendor stated the MEO customer complaint
section was nonresponsive to some payment problems. Eight of the 11
responding vendors rated DFAS MEO overall satisfaction as good, while 2 rated
satisfaction as fair, and 1 as poor.

        DeCA Satisfaction. DeCA managers reported general satisfaction with
the performance of the DFAS commissary vendor payment MEO. DeCA
managers stated that they monitored MEO performance through review of
monthly accounting and performance status reports and worked with DFAS-CO
personnel to resolve invoice payment problems. DeCA managers did not believe
that any uncorrected problems existed with the commissary vendor payment
MEO.




                                    7
MEO Costs
    Operating Costs. The commissary vendor payment function total FY 1999
    operating costs were $2.828 million, which was $194,000 or about 7.3 percent
    over the total Government in-house estimate of $2.634 million. The following
    table provides a summary of the estimated FYs 1999 and 2000 costs and the FY
    1999 actual costs to perform the function.

          Defense Finance and Accounting Service Defense Commissary Vendor
                            Payment Government Costs
                                   (in thousands)

                                                                   Estimate      Actual Estimate
             Cost Category                                         FY 19991     FY 1999 FY 20001

             Personnel costs                                        $2,277        $2,243     $2,299
             Material and supply costs                                  10            20         10
             Other specifically attributable costs2                     74           3333        67
             Overhead4                                                273            232        276

              Total                                                 $2,634        $2,828     $2,652

    1
      DFAS cost estimates were based on an MEO strength level of 75.4 FTEs.
    2
      Other specifically attributable costs consisted of property insurance, minor items, and equipment
       purchases.
    3
      IG computed actual cost.
    4
      Estimated overhead costs for FYs 1999 and 2000 calculated at 12 percent of estimated personnel
       costs in accordance with the OMB Circular A-76 Supplemental Handbook. FY 1999 actual
       costs calculated by DFAS at 10.36 percent of actual personnel costs.


    Personnel Costs. The actual FY 1999 FTE personnel for the commissary vendor
    payment function fluctuated between 72 and 63 with an average of 69.08 FTE.
    DFAS-CO officials stated that many employees performing the commissary
    vendor pay function were paid at the step 10 level of their grade while the
    COMPARE program used to generate the MEO in-house cost estimate for the
    OMB Circular A-76 cost comparison calculated labor costs using the step 5 pay
    level for each grade. A DFAS-CO official later stated that actual personnel costs
    might have included costs generated from non-MEO personnel cost codes.
    DFAS-CO could not provide documentation to substantiate which (if any) cost
    codes were used to create the FY 1999 actual costs were erroneously included.

    Material Costs. DFAS-CO reported that actual material costs for FY 1999 were
    $20,200, about $10,000 above the MEO cost estimate. However, DFAS-CO
    officials provided documentation that showed material and supply purchases




                                                  8
           totaled $18,197, about $8,000 above the MEO estimate. The DFAS-CO officials
           could not explain the differences between the reported costs and the documented
           purchases.

           Overhead Costs. DFAS-CO reported that actual FY 1999 overhead costs totaled
           $232,000. DFAS-CO officials later stated that the “actual” amount was, in fact,
           an estimate based on 10.36 percent of the FY 1999 basic payroll account and that
           actual overhead costs attributable to the MEO were not identified. DFAS could
           not show that the 10.36 percent factor accurately represented actual overhead
           costs more than the 12 percent factor specified by the OMB Circular No. A-76
           Supplemental Handbook.

           Other Specifically Attributable Costs. The MEO cost estimate consists of
           insurance costs, minor items, facilities and other equipment costs. The actual
           costs in this category included $550,300 for locally purchased equipment
           allocated to the vendor payment function. DFAS-CO officials stated that the
           equipment costs should be excluded from the comparison of actual and estimated
           costs because facilities and equipment were offered by DFAS to both the MEO
           and the contractor during the competition. However, the performance work
           statement indicates that the contractor would furnish desktop computer equipment
           and was not included as a common cost. Our analysis of the purchased equipment
           account determined that about 60 percent, or $333,000 of the account balance,
           was for computer equipment. DFAS-CO could not provide information on how
           actual minor item and insurance costs were accounted for in the MEO.

           FY 2000 Projected Costs. The DFAS-CO budget estimate for MEO personnel
           costs for FY 2000 was $2,937,000* or $638,000 more than the original
           Government in-house estimate of $2,299,000. DFAS-CO based projected costs
           on 63 FTE personnel, or about 12 fewer FTEs than the original MEO. DFAS-CO
           budget officials stated that the commissary vendor payment function costs were
           overstated because cost inclusions were not part of the MEO structure. However,
           DFAS could not provide documentation that separately identified the MEO and
           non-MEO costs.
           Projected Savings from MEO and MEO Deviation Implementation.
           DFAS-CO budget figures did not correspond to either the original or revised
           MEO cost estimates and DFAS-CO could not present documentation to explain
           the differences. As a result, DFAS did not have reliable operating information to
           confirm that the implementation of the MEO and MEO deviation would achieve
           projected cost savings. We believe DFAS should verify costs for the Defense
           commissary vendor payment function for FYs 1998 through 2000.




*
    The FY 2000 budgetary estimate for personnel costs includes actual costing data for October 1999
    through March 2000.




                                                      9
Management Comments on the Finding and Audit Response
    DFAS Comments on Transition Plan for MEO. DFAS stated that
    documentation is available that tracks the implementation and transition
    milestones. DFAS subsequently provided additional documentation regarding
    transition team minutes. DFAS headquarters is drafting guidance on transition
    phase documentation required for implementing a MEO. The guidance should be
    implemented in December 2000.

    Audit Response. We revised the report discussion on the transition plan, based
    on additional transition team minutes provided by DFAS. However, we continue
    to believe that the documentation is insufficient to verify that transition plan
    milestones were adequately monitored. We consider DFAS actions to develop
    guidance on transition period actions responsive to the finding.

    DFAS Comments on MEO Deviation. DFAS stated that no specific regulatory
    requirement exists for MEO deviation documentation. DFAS believed that a fully
    documented business case analysis was developed to support the MEO deviation.
    DFAS agreed that performance metrics for MEO deviation staffing and costs
    were not monitored through a quality assurance program but stated that the MEO
    deviation was tracked to determine if it met performance requirements. DFAS
    stated that a General Accounting Office review provided positive comments
    concerning the quality and content of the deviation. DFAS stated that a second
    MEO deviation was under development that would address all adjustments to the
    MEO precipitated by workload changes. DFAS headquarters is drafting guidance
    that will provide criteria for the documentation required for MEO deviation
    requests. The guidance should be implemented by December 2000.

    Audit Response. The OMB Circular No. A-76 Supplemental Handbook requires
    documentation of management study results to show the development and extent
    of the analytical process for changes made to the MEO, but does not provide
    specific guidance on the type of MEO documentation. The initial deviation
    request lacked source documentation including a formal study plan identifying
    procedures for conducting and implementing the deviation. Thus, we could not
    validate the initial deviation request. The General Accounting Office Report No.
    NSIAD-00-107, “DoD Competitive Sourcing: Savings Are Occurring, but
    Actions Are Needed to Improve Accuracy of Savings Estimates,” August 8, 2000,
    did not comment on the commissary vendor payment MEO deviation. The
    General Accounting Office report noted that source information was not
    validated.

    DFAS Comments on Quality Assurance Surveillance. DFAS agreed that a
    quality assurance evaluator was not appointed in a timely manner. DFAS
    headquarters is drafting and plans to issue guidance in December 2000 that will
    address MEO quality assurance surveillance and supporting documentation
    requirements.




                                        10
    DFAS Comments on MEO Costs. DFAS agreed that a report identifying actual
    MEO costs was not available, but believed that sufficient documentation was
    available to determine the conformance of costs to the MEO. DFAS noted that
    MEO cost estimates were based on OMB Circular A-76 guidance, and as such,
    cannot be directly compared with actual costs when determining MEO cost
    performance. Also, the MEO cost estimates were derived from a variety of
    methodologies and factors not included in budget estimates or comparable with
    actual MEO costs. DFAS headquarters will issue guidance by December 2000
    that will require a specifically designed cost report that identifies MEO operating
    costs.

    Audit Response. We disagree that actual MEO costs can not be used for cost
    performance comparison to a MEO cost estimate. Our audit identified MEO costs
    from the available data that could be used for cost performance comparisons to
    the certified in-house cost estimate. If DFAS issues guidance requiring a report
    capturing present and historical verifiable MEO related costs, this will meet the
    intent of the finding. See Appendix A for additional comments on the
    Management Control Program.

Recommendations,           Management             Comments,           and      Audit
  Response
    We recommend that the Director, Defense Finance and Accounting Service:

       1. Establish recordkeeping and accounting requirements for
       documenting that each MEO for in-house performance is implemented in
       accordance with the Management Plan, Transition Plan, and the Quality
       Assurance Surveillance Plan, and that a quality assurance surveillance
       monitor is appointed for each MEO.

       Management Comments. DFAS partially concurred, stating that guidance
       will be issued by December 2000 on MEO implementation documentation and
       quality assurance surveillance requirements. DFAS stated that it had
       appointed a quality assurance evaluator on May 5, 2000.

       Audit Response. DFAS comments were fully responsive to the intent of the
       recommendation.

       2. Adjust MEO staffing, planned costs, and quality assurance metrics,
       for the increased volume of payments, and verify costs for the Defense
       commissary vendor payment function for FYs 1998 through 2000.

       Management Comments. DFAS partially concurred, stating that it would
       adjust MEO staffing, costs, and quality assurance metrics through a second
       MEO deviation. DFAS did not agree to verify FYs 1998 through 2000 costs
       for the vendor payment function, stating that sufficient documentation for




                                        11
MEO costs presently exists. However, management stated in separate detailed
comments that DFAS planned to issue guidance by December 2000 that
would require a cost report that separately identifies the MEO operating costs.

Audit Response. If the proposed DFAS cost report captures present and
historical costs related to the DeCA vendor payment MEO that can be
independently verified, the management action will be fully responsive to the
intent of the recommendation.




                                12
Appendix A. Audit Process

Scope and Methodology
    The audit examined DFAS documents prepared between September 1997 and
    June 2000 to evaluate the implementation and functioning of the MEO
    management plan as it relates to FTEs, grade structure, MEO workload,
    responsiveness, and quality of work; and the implementation and use of the MEO
    quality assurance surveillance plan. The audit also examined actual costs incurred
    from October 1998 through March 2000 to determine if they varied significantly
    from costs in the Government estimate. We traced actual labor, material and
    reduction-in-force costs against the personnel, material, and other specifically
    attributable costs on the cost comparison form. We also surveyed DeCA and
    fifteen major commissary vendors on their satisfaction with the DFAS-CO
    commissary vendor payment function after implementation of the MEO.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure:

       FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
       by pursuing a focused modernization effort that maintains U.S. qualitative
       superiority in key warfighting capabilities. Transform the force by exploiting
       the Revolution in Military Affairs, and reengineer the Department to achieve a
       21st century infrastructure. (01-DoD-2) FY 2001 Subordinate Performance
       Goal 2.3: Streamline the DoD infrastructure by redesigning the Department’s
       support structure and pursuing business practice reforms. (01-DoD-2.3)
       FY 2001 Performance Measure 2.3.3: Public/Private Sector Competitions.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed cost accounting data on the vendor payment function
    calculated by the DFAS Record Analysis Decision Support System. DFAS
    officials stated that an initial verification review was performed in 1995 and that
    system reports are verified against monthly trial balances. IG, DoD, performed
    limited review and reliability tests of the Record Analysis Decision Support
    System during two previous audits performed between March 1995 and March
    1996. The audits conducted test comparisons against noncomputer records. The
    review and tests did not identify any errors that would preclude the data from
    being used in their analysis. DFAS officials stated that the Record Analysis
    Decision Support System has not had any major changes since 1996. We did not



                                         13
    perform a formal validation of the Record Analysis Decision Support System and
    instead relied on the previously completed reviews. Nothing came to our
    attention in this implementation review that caused us to doubt the reliability of
    the computer-processed data.

    Use of Technical Assistance. We received technical assistance from the
    Quantitative Methods Division of the Audit Follow-up and Technical Support
    directorate in analysis of the DFAS quality assurance surveillance plan included
    in the commissary vendor payments function competitive sourcing study.

    Audit Type, Dates and Standards. We performed this performance audit from
    December 1999 through June 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States as implemented by the Inspector
    General, DoD.
    Contacts During the Audit. We interviewed DFAS and DeCA personnel and
    commissary vendor personnel during the audit. Further details are available upon
    request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. The management
    control program as it relates to the DFAS A-76 program is discussed in detail in
    IG, DoD, Report No. 99-208, “Defense Finance and Accounting Service
    Commercial Activities Program,” July 8, 1999. The post-MEO implementation
    review is a management control procedure for the A-76 process. We reviewed the
    adequacy of DFAS-CO management controls over implementation of the MEO
    for the commissary vendor payment function. Specifically, we reviewed DFAS
    management controls over the transition phase and post-implementation quality
    assurance and cost monitoring of MEO performance associated with A-76 cost
    competitions.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DFAS-CO as defined by DoD Instruction 5010.40.
    DFAS-CO did not develop or maintain management controls over MEO
    implementation. DFAS-CO had not established controls to ensure that the MEO
    and MEO deviation were implemented in accordance with the Quality Assurance
    Surveillance Plan and the Transition Plan, as required by the OMB Circular A-76
    Supplemental Handbook. Recommendations 1. and 2., if implemented, will
    improve DFAS MEO implementation and documentation retention procedures.




                                        14
A copy of the report will be provided to the senior official responsible for
management controls in the Office of the Under Secretary of Defense
(Comptroller).

Adequacy of Management’s Self-Evaluation. DFAS-CO officials did not
identify implementation of the MEO for commissary vendor pay as an assessable
unit and, therefore, did not identify the material management control weaknesses
identified by this audit.

DFAS Comments on the Management Control Program. In management
comments to a draft of this report, DFAS did not agree that a material
management control weakness existed over the DFAS-CO implementation of the
MEO. DFAS agreed that oversight and monitoring of MEOs is a critical area and
stated that DFAS Internal Control staff is surveying all DFAS MEOs to assess
implementation.
Audit Response. DFAS concurrence of the report recommendations will
eliminate any future material management weakness over MEO implementation.
The subsequent DFAS staff survey of MEO implementation meets the intent of
management’s self-evaluation.




                                     15
Appendix B. Prior Coverage

General Accounting Office
     General Accounting Office (GAO), Report No. NSIAD-00-107 (OSD Case
     No. 2020), “DoD Competitive Sourcing: Savings Are Occurring, but Actions Are
     Needed to Improve Accuracy of Savings Estimates,” August 8, 2000

     General Accounting Office (GAO), Report No. GGD-00-68 (No OSD Case No.),
     “Competitive Contracting: The Understandability of FAIR Act Inventories Was
     Limited,” April 14, 2000

     General Accounting Office, Report No. NSIAD-99-152 (OSD Case No. 1827),
     “DoD Competitive Sourcing Lessons Learned System Could Enhance A-76 Study
     Process,” July 21, 1999

     General Accounting Office, Report No. NSIAD-99-46 (OSD Case No. 1727),
     “DoD Competitive Sourcing: Questions About Goals, Pace, and Risks of Key
     Reform Initiative,” February 22, 1999

     General Accounting Office, Report No. NSIAD-99-44 (OSD Case No. 1725),
     “DoD Competitive Sourcing: Results of Recent Competitions,”
     February 23, 1999

     General Accounting Office, Report No. NSIAD-98-82 (OSD Case No. 1535),
     “Base Operations: DoD’s Use of Single Contracts for Multiple Support
     Services,” February 27, 1998

     General Accounting Office, Report No. NSIAD-98-62 (OSD Case No. 1503),
     “Defense Outsourcing: Better Data Needed to Support Overhead Rates for
     A-76 Studies,” February 27, 1998

     General Accounting Office, Report No. NSIAD-98-43 (No OSD Case No.),
     “Financial Management: Outsourcing of Finance and Accounting Functions,”
     October 17, 1997

     General Accounting Office, Report No. NSIAD-97-86 (OSD Case No. 1301),
     “Base Operations: Challenges Confronting DoD as It Renews Emphasis on
     Outsourcing,” March 11, 1997


Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-117, “Independent Review of the
     Defense Finance and Accounting Service Competitive Sourcing Study of the
     Depot Maintenance Accounting Function,” April 28, 2000



                                      16
Inspector General, DoD, Report No. 99-244, “Independent Review of the Defense
Finance and Accounting Service Competitive Sourcing Study of the
Transportation Accounting Function,” September 1, 1999

Inspector General, DoD, Report No. 99-236, “Independent Review of the Defense
Finance and Accounting Service Competitive Sourcing Study of the Defense
Commissary Agency Accounting Function,” August 19, 1999

Inspector General, DoD, Report No. 99-208, “Defense Finance and Accounting
Service Commercial Activities Program,” July 8, 1999

Inspector General, DoD, Report No. 99-078, “Outsourcing of Defense
Commissary Agency Operations,” February 5, 1999

Inspector General, DoD, Report No. 97-128, “Evaluation of DoD Civilian Pay
Outsourcing Study,” April 15, 1997

Inspector General, DoD, Report No. 97-035, “Defense Finance and Accounting
Service Administration of Unit Costs,” November 29, 1996

Inspector General, DoD, Report No. 96-149, “Defense Finance and Accounting
Service Billing Rates, ” June 7, 1996

Inspector General, DoD, Report No. 95-162, “Cost Growth In Commercial
Activity Contracts,” March 31, 1995




                                  17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Installations)
Deputy Under Secretary of Defense (Acquisition Reform)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Columbus

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                               18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Service
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology, Committee on
  Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                           19
Defense Finance and Accounting Service
Comments




                   21
22
     Attachment
     2 not
     included




23
24
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

Paul J. Granetto
Garold E. Stephenson
Kent E. Shaw
Benjamin A. Mehlman
Lawrence N. Heller
Donna L. Starcher
Sandra S. Morrell
